                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-34                                   Office of Inspections                                       June 2013




                  Inspection of the
       Regional Procurement Support Offices,
             Frankfurt, Germany, and
           Fort Lauderdale, United States




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                          1
Regional Procurement Support Office Frankfurt          2
  Context                                              2
  Executive Direction                                  2
  Succession Planning                                  3
  Policy and Program Implementation                    3
  Resource Management                                  5
  Human Resources                                      6
  Contracts                                            7
Regional Procurement Support Office Fort Lauderdale    9
  Context                                              9
  Executive Direction                                 10
  Policy and Program Implementation                   10
  Resource Management                                 11
  Training                                            12
  Human Resources                                     12
  Contracts                                           12
List of Recommendations                               13
List of Informal Recommendations                      15
Principal Officials                                   16
Abbreviations                                         17




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   The Regional Procurement Support Office (RPSO) in Frankfurt provides responsive service
    to global customers, but locally employed (LE) staff salaries are among the highest in the
    world. The Bureau of Administration is reviewing the viability of relocating RPSO to lower-
    cost locations.

   Too many of RPSO Frankfurt’s resources are dedicated to low dollar-value procurement
    actions, which can be executed at missions using purchase cards. An evaluation of RPSO’s
    workload is needed to determine whether their activities should be restricted to contract
    actions above $25,000.

   The Bureau of Administration needs to carry out a workload study for RPSO Fort Lauderdale
    to assess the staffing needs.

   In light of the difficulties encountered by many narcotics affairs sections in the development
    of contract specifications, it is important that RPSO Fort Lauderdale contracting specialists
    travel to posts to advise them prior to awarding large contracts.

   The bureaus and agencies that use both RPSOs have not coordinated with the offices
    regarding their annual acquisition plans, creating significant inefficiencies.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) team did not identify problems that need to
be corrected.

The inspection took place in Washington, DC, between December 15, 2012, and February 1,
2013; in Frankfurt, Germany, between February 5 and 22, 2013; and in Fort Lauderdale, Florida,
between February 25 and March 8, 2013. [Redacted] (b) (6)
                                                conducted the inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Regional Procurement Support Office Frankfurt
Context

      The Bureau of Administration, Office of Acquisitions Management (A/LM/AQM), has
RPSOs in Frankfurt and Fort Lauderdale. Both are funded by the Bureau of Administration’s
working capital fund.

       In 2012, RPSO Frankfurt processed 1,669 procurement actions totaling $178 million.
While the number of transactions processed has decreased from 2,020 in FY 2010 to 1,669 in FY
2012, the dollar value has increased 12 percent per annum for the past 4 years, totaling $178
million in FY 2012. RPSO Frankfurt’s biggest customers are the Bureau of Overseas Buildings
Operations, the Bureau of International Narcotics and Law Enforcement Affairs (INL), and the
Centers for Disease Control and Prevention in Europe, the Middle East, and Africa.

       RPSO Frankfurt’s staff includes 2 Civil Service employees, 1 Foreign Service officer, 23
LE staff members, and 4 U.S. local hires. Its FY 2012 budget was $4.5 million.

                        Foreign      Civil        LE       U.S.       Total    Total Funding
                        Service     Service      Staff     Local      Staff      FY 2012*
                         Direct                            Hire
                         Hire

  RPSO Frankfurt           1           2          23          4        30        $4,497,782*

                            Table 1: RPSO Frankfurt Staffing Chart
                                     Source: RPSO Frankfurt
*Excludes U.S. direct-hire salaries.

        OIG customer service questionnaires for RPSO Frankfurt were favorable. Employee
surveys reflected positive morale and job satisfaction. Executive directors in the Department of
State’s (Department) regional bureaus also gave the office positive ratings.

Executive Direction

        RPSO Frankfurt, established in 1998, is an integral part of A/LM/AQM. Both RPSO
Frankfurt and RPSO Fort Lauderdale are supervised directly by A/LM/AQM’s director. RPSO
Frankfurt’s mandate is to provide contracting and procurement services, on request, for 19
government agencies and all geographic bureaus in the Department. The director and deputy
director are experienced contracting officers with unlimited warrants. A Foreign Service officer
acts as the executive officer. The LE staff is organized into three units—two for high-dollar
contracts and one for small procurement actions.

        For the past year, RPSO Frankfurt has operated without a deputy director, leaving the
director to review and certify all contracting and procurement actions. This decision has placed a
severe burden on the director and undermined the office’s operational effectiveness. The deputy

                                        2
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

position was left vacant as a result of an A/LM/AQM review, which is ongoing, regarding the
future of RPSO Frankfurt, but A/LM/AQM has decided to fill both the director and deputy
director slots in 2013.

Succession Planning

        A/LM/AQM is conducting a relocation review to determine whether to relocate all or a
portion of RPSO Frankfurt based on cost and other criteria. One option under consideration is a
move of all or some of the RPSO Frankfurt functions to a lower-cost overseas location.
A/LM/AQM and RPSO Frankfurt see significant value in having an office overseas and in the
same time zone as their customers. Typical LE procurement agent salaries in Frankfurt are
$74,700, among the highest in the world; LE procurement agent salaries in Sofia are $26,438 and
in Bangkok, $25,218. Locating all 21 procurement agent positions to Sofia rather than Frankfurt,
for example, could save the Department $1 million annually. Separation costs in Western Europe
are also very high, often exceeding 2.5 years of salary for long-term employees. Since 8 of the 25
LE staff are due to retire in the next 5 years, such a review is timely. The OIG team supports this
review. Any review of alternative locations should also incorporate relocating this function back
to the United States.

Recommendation 1: The Bureau of Administration should freeze hiring of Regional
Procurement Support Office Frankfurt locally employed staff until the relocation review is
completed. (Action: A)

Policy and Program Implementation

        RPSO Frankfurt provides procurement and contracting services to embassies or agencies
on request. It also supports small embassies when their contracting and procurement officers are
absent from post. Increases in the complexity of these contracts and their dollar value can be
attributed primarily to construction contracts for treatment facilities in Africa funded by the
President’s Emergency Plan for AIDS Relief (PEPFAR) and INL procurements marked for Iraq,
Afghanistan, and Pakistan. The table below highlights RPSO Frankfurt procurements for various
bureaus and agencies.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

     Source of          Bureau of        Bureau of         Bureaus of          Other            Total
     Funding            European          African           South &           Agencies
                          and             Affairs            Central
                        Eurasian                          Asian Affairs
                         Affairs                            and Near
                                                             Eastern
                                                             Affairs
Department-
funded                 $62,883,469        $6,977,209        $56,625,327      $7,385,503      $133,871,508

  INL                    $6,318,396            -            $26,832,671          $49,854      $33,200,921
  Bureau of
  Overseas
  Buildings
  Operations           $18,635,619        $2,762,887         $7,568,982      $3,034,660       $32,002,148
  Bureau of
  Diplomatic
  Security             $19,282,220        $2,469,190         $8,947,890            -          $30,699,300
  Working
  Capital Fund1        $10,986,326             -                 -                 -          $10,986,326
  Other
  Sources                $1,759,345       $1,745,133         $2,830,610      $4,300,990       $10,636,078
  Bureaus of
  South &
  Central Asian
  Affairs and
  Near Eastern
  Affairs                   $38,004            -            $10,445,173            -          $10,483,177
  Bureau of
  European and
  Eurasian
  Affairs                $5,863,558            -                 -                 -           $5,863,558
PEPFAR-
funded                              0   $42,947,882                      0               0    $42,947,882
Other
Agency-
funded                  $3,068,411         $430,385            $725,414          -             $4,224,210
Totals                 $65,951,880      $50,355,476         $57,350,741      $7,385,503      $181,043,600

                     Table 2: Procurement and Contracting Transactions for FY 2012
                                       Source: RPSO Frankfurt

        At the end of every fiscal year, RPSO Frankfurt is faced with the challenge of processing
a flood of last-minute requests for large procurement actions and contracts as funds that have
been held back by the Department are released to embassies and bureaus. As embassies and

1
    Working Capital Fund (for Expendable supplies for European Logistical Support Office).
                                              4
                                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

bureaus do not provide RPSO Frankfurt with their acquisition plans, the office often is unaware
of proposed procurements until they receive the actual requests. Proper coordination among
RPSO Frankfurt, bureaus, and agencies would maximize the efficiency of RPSO Frankfurt’s
response to these last minute demands.

Recommendation 2: The Bureau of Administration should require all bureaus using Regional
Procurement Support Office Frankfurt to share their acquisition plans with Regional
Procurement Support Office Frankfurt. (Action: A)

        Sixty-four percent of RPSO Frankfurt’s Department-funded procurement actions in 2012
were under $25,000. Many of these actions can be performed at embassies and other agencies
using their own authorities or purchase cards. RPSO Frankfurt also supports Consulate General
Frankfurt procurements, most of which are also under $25,000. Five LE staff members manage
procurements under $25,000. Since no cost-benefit study has been performed it is unclear
whether it is more cost effective for RPSO or the embassies to handle these small procurements.
Without analysis, A/LM/AQM risks wasting RPSO Frankfurt resources.

Recommendation 3: The Bureau of Administration should determine whether Regional
Procurement Support Office Frankfurt should continue to support requests for procurement
actions under $25,000. (Action: A)

Warrants

       Four Americans at RPSO Frankfurt have contracting warrants. A 2011 procurement
review by the Bureau of Administration, Office of the Procurement Executive, recommended
that RPSO Frankfurt consider delegating procurement authority to LE staff to reduce the
workload on the director and deputy director. Senior RPSO LE staff members meet Department
requirements to receive warrants for up to $25,000. If RPSO Frankfurt continues small
procurements, it will need to analyze the need for additional warrants.

       RPSO Frankfurt staff has extensive contracting experience, and they advise and mentor
American and LE staff when they visit embassies on contract-related business. Since many
embassy personnel lack experience and training in contracting, this support is well received.
While RPSO Frankfurt does not have a training mandate, the LE staff is well qualified to provide
mentoring of this nature. This requirement could be factored into RPSO contract negotiation
trips.

       Informal Recommendation 1: The Bureau of Administration should require Regional
       Procurement Support Office Frankfurt to schedule sufficient time for locally employed
       staff to mentor embassy staff while on contract-related visits.

Resource Management

        A/LM/AQM monitors the workload of the RPSOs and can shift workload between them
or to other offices within the bureau as necessary. Despite the absence of a deputy, the RPSO
Frankfurt director and her staff have performed well. In 2012, the director reallocated staff
resources from two into three units to improve efficiency. This was done without full buy-in of

                                       5
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

the staff, resulting in needless friction. The LE staff is professional and experienced. Not
consulting them about work procedures risks reducing productivity.

       Informal Recommendation 2: The Bureau of Administration should require that
       Regional Procurement Support Office Frankfurt involve locally employed staff in
       organizational decisions.
Training

        RPSO Frankfurt does not have an orientation program for new employees. LE staff
indicated disappointment with the lack of a professional orientation program and expressed a
desire for improved coordination between units. New employees told inspectors that they did not
understand their roles and responsibilities within the office.

           Informal Recommendation 3: The Bureau of Administration should require that
           Regional Procurement Support Office Frankfurt develop an orientation program for new
           employees.

        Employees recruited to RPSO are required to complete a series of procurement and
contracting courses before they are certified as procurement agents. However, RPSO Frankfurt
does not have a training coordinator to ensure that employees receive the appropriate training,
both for their current position and to prepare them to take on added duties and responsibilities in
the future. With so many senior LE staff preparing for retirement in the next 5 years, it is
important that RPSO Frankfurt prepare for this turnover by training replacements.

           Informal Recommendation 4: The Bureau of Administration should require that
           Regional Procurement Support Office Frankfurt designate a training coordinator to track
           required training for all locally employed procurement agents.

Human Resources

        A new general services specialist position is scheduled to be filled in January 2014. As
outlined in 12 State 96173, National Security Decision Directive 38 Case Number DOS-ST-
0009-2012,2 the position was initiated by the Bureau of Human Resources and the Bureau of
Administration, Office of Logistics Management, as a training position to ―bring greater supply
chain management and contracting expertise among the general services officer specialist corps.‖
RPSO Frankfurt was not consulted. While the OIG team supports the Department’s efforts to
professionalize the general services officer specialty, it is questionable whether placing such a
position overseas is consistent with the tenants of the National Security Decision Directive 38
process, which discourages placement of positions overseas if those functions can be performed
domestically or through temporary duty travel. A/LM/AQM offices in Rosslyn, Virginia, and
Fort Lauderdale, Florida, provide acquisition services to overseas missions worldwide.
Additionally, the Bureau of Administration has yet to identify the position’s supervisory chain or
work requirements. After discussing this issue with A/LM/AQM and RPSO Frankfurt, OIG
inspectors were unable to identify a valid requirement for this position. Embassy Berlin notes
that government-owned housing at Consulate General Frankfurt is fully occupied, so the new


2
    The Bureau of Human Resources identified this as FS-04 position number 52397048.
                                              6
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

position will incur leasing costs. According to the Department’s new position cost model, the
average cost of a new American position overseas is $585,189 (including leasing costs).

Recommendation 4: The Bureau of Administration should, in coordination with the Bureau of
Human Resources, eliminate the new general services specialist position at Regional
Procurement Support Office Frankfurt. (Action: A, in coordination with DGHR)

        Embassy Berlin’s human resources records for the past several years indicate that a
majority of the LE staff evaluations in RPSO Frankfurt have been delinquent, some in excess of
12 months. Promotions and salary increases are tied to the completion of these evaluations, and
delays result in loss of pay for the affected employees.

Recommendation 5: The Bureau of Administration should require that Regional Procurement
Support Office Frankfurt develop a tracking mechanism for all locally employed staff
evaluations in order to identify supervisors who do not complete them on time. (Action: A)

        Over the past year, due to the lack of a deputy director, RPSO Frankfurt leadership has
reduced the number of staff meetings, which has resulted in insufficient coordination and
difficulty in obtaining timely decisions on issues. A lack of communication diminishes
organizational effectiveness and coordination within the office.

        Informal Recommendation 5: The Bureau of Administration should require that
        Regional Procurement Support Office Frankfurt hold regular staff meetings.

        Germany has a generous leave program. The LE staff gets 6 weeks of leave and 19 days
off for official holidays each year, totaling approximately 20 percent of the work year. Sick leave
is also generous, and several RPSO Frankfurt LE staff members have been on sick leave in
excess of 6 months at a time. Not managing leave schedules effectively undermines the ability of
the office to meet its requirements.

        Informal Recommendation 6: The Bureau of Administration should require that
        Regional Procurement Support Office Frankfurt develop an annual leave plan.

Contracts

        The Office of the Procurement Executive and A/LM/AQM conducted a joint
procurement review of RPSO Frankfurt in 2011.3 OIG’s Office of Audits also reviewed a sample
of RPSO Frankfurt-awarded PEPFAR construction contracts in 2012.4 Not all RPSO Frankfurt
staff were briefed on the results of these reviews, and RPSO Frankfurt has yet to address all the
recommendations. This inspection team performed a spot review based on the findings of the
two previous audit reports and confirmed that the following areas have not been addressed:
trafficking in persons contract provisions; contracting officer’s representative (COR) required
training; and the use of government technical monitors.

3
 Joint Procurement Management Review of RPSO Frankfurt, Germany, and Antwerp, Belgium, January 2012.
4
 Improved Contract Documentation and Monitoring by the Regional Procurement Support Office Are Needed for
Construction Projects Associated With the President’s Emergency Plan for AIDS Relief (PEPFAR), AUD-IP-12-03,
November 2011.

                                           7
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 6: The Bureau of Administration should require Regional Procurement
Support Office Frankfurt to complete all recommendations from previous Office of the
Procurement Executive and Office of Inspector General, Office of Audits, reviews. (Action: A)

       Informal Recommendation 7: The Bureau of Administration should require Regional
       Procurement Support Office Frankfurt to brief all staff on the results of the Office of the
       Procurement Executive and Office of Inspector General, Office of Audits, reviews and
       compliance with their recommendations.

        The OIG team noted a ―Buy Afghanistan‖ clause in some contracts. The clause is not
specific enough to ensure that materials purchased from Afghan vendors are equal or equivalent
in quality to materials available from other sources. The clause appears to give preference to
Afghan suppliers regardless of the quality of the goods.

Recommendation 7: The Bureau of Administration should request that the Office of the Legal
Adviser determine whether the ―Buy Afghanistan‖ clause can be clarified for Regional
Procurement Support Office Frankfurt contracts. (Action: A)




                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Regional Procurement Support Office Fort Lauderdale
Context

        RPSO Fort Lauderdale was established in 1987 to support embassies and consulates in
the Bureau of Western Hemisphere Affairs with their complicated procurement and contracting
needs. INL is the primary customer for RPSO Fort Lauderdale’s contracting services. RPSO Fort
Lauderdale has seven Civil Service personnel; all are experienced and technically qualified
procurement and contracting experts.

                         Foreign    Civil     Contract     U.S.      Total     Total Funding
                         Service   Service                 Local     Staff       FY 2012*
                          Direct                           Hire
                          Hire
  RPSO Fort
  Lauderdale                          7                      0         7       ($2,711,411) *

                       Table 3: RPSO Fort Lauderdale Staffing Chart
                              Source: RPSO Fort Lauderdale
* Excludes American salaries.

        In the past 5 years, the value of contracting actions executed by RPSO Fort Lauderdale
varied considerably, reaching a high of $219.7 million in 2011. In 2012, RPSO Fort Lauderdale
executed actions valued at $71 million. Workload spiked in 2010 and 2011 as a result of the
Merida Initiative, a security cooperation agreement with Mexico and the countries of Central
America to combat drug trafficking, transnational crime, and terrorism. The initiative ended in
2011.

          Fiscal Year               Value of Actions               Number of Actions
             2007                     $50,549,085                            450
             2008                     $65,408,919                            456
             2009                     $84,646,689                            356
             2010                     $122,957,521                           482*
             2011                     $219,739,505                           407*
             2012                     $71,715,859                            270

                      Table 4: RPSO Fort Lauderdale Workload, FYs 2007–12
                                 Source: RPSO Fort Lauderdale
*Merida Initiative.

        Customer service questionnaires for RPSO Fort Lauderdale were uniformly favorable.
Employee surveys reflected positive morale and job satisfaction for most employees. Executive
directors in the regional bureaus gave the office very positive ratings.



                                         9
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Executive Direction

         Two RPSO Fort Lauderdale specialists have unlimited warrants, while the others range
from $150,000 to $10 million. The logistics management specialist manages the office’s
purchase card with a limit of $25,000. The director, who left in February 2013, mentored the
staff, allowed them time for training, and provided assistance as needed. The OIG team’s review
of a sample of contracts reflects the importance of his input. However, neither he nor the Bureau
of Administration designated a deputy who could act as director after his departure. This vacancy
left the staff to operate in a vacuum with little sense of team orientation and a loss of coherence
within the office.

Recommendation 8: The Bureau of Administration should establish a procedure for identifying
an acting director when the Regional Procurement Support Office Fort Lauderdale director is
absent. (Action: A)

Policy and Program Implementation

        RPSO Fort Lauderdale has established an excellent working relationship with the Office
of Small and Disadvantaged Business Utilization (SDBU). Partially as a result of its
understanding of SDBU contracting requirements, RPSO Fort Lauderdale received only four bid
protests in 2012, two of which were later dismissed or dropped. RPSO Fort Lauderdale
specialists also have identified a number of opportunities to bundle procurement requirements to
obtain better prices. For example, when RPSO Fort Lauderdale saw an opportunity to negotiate
favorable prices on motorcycles, it reached out to a number of INL sections at embassies,
bundled the resulting requests, and obtained a lower contract price. To improve RPSO Fort
Lauderdale’s ability to get the best prices, A/LM/AQM recently assigned a GS-14 contracting
officer to Embassy Bogota to focus on strategic sourcing for INL’s programs throughout the
region.

        Many CORs designated by missions do not have the technical knowledge to develop
contract specifications or to oversee the contracts once they are awarded. These responsibilities
are almost always subsidiary duties, for which the individuals may not be either experienced or
technically knowledgeable. The result is frustration, lengthy email discussions, and delays in
resolving contracting issues.

       Informal Recommendation 8: The Bureau of Administration should require Regional
       Procurement Support Office Fort Lauderdale to develop a list of technically experienced
       individuals at missions throughout the region who can be called upon to assist in
       evaluating contract specifications.

        During 2012, RPSO Fort Lauderdale contracting specialists only took five trips.
A/LM/AQM told inspectors that one of the most challenging aspects of RPSO Fort Lauderdale’s
work was inadequate attention to contract specifications and oversight by inexperienced CORs.
Given the challenges faced by the CORs at missions, RPSO Fort Lauderdale contracting
specialists need to travel more frequently to assist the CORs, particularly when the CORs are
developing contract specifications. Lack of timely RPSO Fort Lauderdale assistance on site
weakens the contract, resulting in more costs to the U.S. Government.

                                       10
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 9: The Bureau of Administration should require contracting specialists at
Regional Procurement Support Office Fort Lauderdale to visit the embassies during pre-
solicitation conferences and on an as needed basis after that. (Action: A)

Resource Management

                                 2012 Services Provided                 2012             2011
                               WHA Missions*      RPSO
Department-Funded
INL                                  71,422,817                        71,422,817     218,785,848
WHA                                     288,763                           288,763         953,657
Working Capital Fund                                      6,118             6,118
Total                                71,711,580           6,118        71,717,699     219,752,131

                  Table 5: Procurement and Contracting Actions 2011–12
                              Source: RPSO Fort Lauderdale
* Note: RPSO Fort Lauderdale did not provide services outside of the Bureau of Western
Hemisphere Affairs.

       Each contracting specialist is responsible for at least 12 new or ongoing contracts at any
one time. In 2012, RPSO Fort Lauderdale added a contracting specialist to its staff. However, the
number and value of RPSO Fort Lauderdale contracts and amendments decreased over the last 2
years due to the completion of the Merida Initiative. The decrease in workload supports the need
for a workload review. A/LM/AQM may find that based on the review staffing levels need to be
adjusted.

Recommendation 10: The Bureau of Administration should review the workload at Regional
Procurement Support Office Fort Lauderdale and eliminate or reprogram positions as
appropriate. (Action: A)

       The former director did not hold regular staff meetings. RPSO Fort Lauderdale staff told
OIG inspectors that this resulted in a lack of coordination among the staff. Regular staff meetings
would contribute to the professional development of the less experienced staff and provide an
opportunity to pass critical information regarding the contracts under development.

       Informal Recommendation 9: The Bureau of Administration should require Regional
       Procurement Support Office Fort Lauderdale to hold regular staff meetings.

       Although some RPSO Fort Lauderdale staff receive awards, there is no formal awards
program or formal recognition. The purpose of awards programs is not only to recognize
individuals but to motivate others to perform. Without formal recognition of employees for a job
well done, morale and office cohesiveness suffer.

Recommendation 11: The Bureau of Administration should implement a formal awards
program for Regional Procurement Support Office Fort Lauderdale. (Action: A)



                                       11
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Training

        All RPSO Fort Lauderdale procurement staff have the required training. However, as in
Frankfurt, there is no formal orientation program for new employees. Employees told inspectors
that upon arrival, they were unable to quickly assimilate into the office. They were also unsure
how to interact with the Department and their colleagues in the region. The arrival of a new
director in summer 2013 will provide an opportunity to address this need for greater clarity,
especially for new employees.

        Informal Recommendation 10: The Bureau of Administration should require Regional
        Procurement Support Office Fort Lauderdale to establish an orientation program for all
        new employees.

Human Resources

       The GS-14 employee recently assigned by A/LM/AQM to Embassy Bogota has limited
experience dealing with RPSO Fort Lauderdale and has not yet reached out to partner on
appropriate projects. The contracting specialists in RPSO Fort Lauderdale have already identified
a number of strategic procurement opportunities that save money for the U.S. Government. Both
RPSO Fort Lauderdale and the INL offices in the region will benefit by allowing this officer to
consult with RPSO Fort Lauderdale on contracting operations and procedures.

Recommendation 12: The Bureau of Administration should require the contracting specialist
assigned to Embassy Bogota to travel to Regional Procurement Support Office Fort Lauderdale
for orientation. (Action: A)

Contracts

        The Office of the Procurement Executive and A/LM/AQM conducted a joint
procurement review of RPSO Fort Lauderdale in January 2009.5 This review did not identify any
systemic issues. During the OIG inspection, inspectors reviewed a random sample of the contract
files. The team found that most of the recommendations from the 2009 review have been
incorporated into RPSO Fort Lauderdale contracting procedures. Several, including the need for
INL to provide its annual strategic procurement plan to RPSO Fort Lauderdale, inconsistent
treatment of value-added tax, more consistent price analyses, and inclusion of required
Trafficking in Persons contract clauses, still need to be completed.

Recommendation 13: The Bureau of Administration should require that Regional Procurement
Support Office Fort Lauderdale complete all recommendations from the previous Office of the
Procurement Executive and Office of Acquisitions Management review. (Action: A)




5
 Ft. Lauderdale Regional Procurement Support Office Procurement Operations Review, January 28-February 3,
2009.
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Administration should freeze hiring of Regional
Procurement Support Office Frankfurt locally employed staff until the relocation review is
completed. (Action: A)

Recommendation 2: The Bureau of Administration should require all bureaus using Regional
Procurement Support Office Frankfurt to share their acquisition plans with Regional
Procurement Support Office Frankfurt. (Action: A)

Recommendation 3: The Bureau of Administration should determine whether Regional
Procurement Support Office Frankfurt should continue to support requests for procurement
actions under $25,000. (Action: A)

Recommendation 4: The Bureau of Administration should, in coordination with the Bureau of
Human Resources, eliminate the new general services specialist position at Regional
Procurement Support Office Frankfurt. (Action: A, in coordination with DGHR)

Recommendation 5: The Bureau of Administration should require that Regional Procurement
Support Office Frankfurt develop a tracking mechanism for all locally employed staff
evaluations in order to identify supervisors who do not complete them on time. (Action: A)

Recommendation 6: The Bureau of Administration should require Regional Procurement
Support Office Frankfurt to complete all recommendations from previous Office of the
Procurement Executive and Office of Inspector General, Office of Audits, reviews. (Action: A)

Recommendation 7: The Bureau of Administration should request that the Office of the Legal
Adviser determine whether the ―Buy Afghanistan‖ clause can be clarified for Regional
Procurement Support Office Frankfurt contracts. (Action: A)

Recommendation 8: The Bureau of Administration should establish a procedure for
identifying an acting director when the Regional Procurement Support Office Fort Lauderdale
director is absent. (Action: A)

Recommendation 9: The Bureau of Administration should require contracting specialists at
Regional Procurement Support Office Fort Lauderdale to visit the embassies during pre-
solicitation conferences and on an as needed basis after that. (Action: A)

Recommendation 10: The Bureau of Administration should review the workload at Regional
Procurement Support Office Fort Lauderdale and eliminate or reprogram positions as
appropriate. (Action: A)

Recommendation 11: The Bureau of Administration should implement a formal awards
program for Regional Procurement Support Office Fort Lauderdale. (Action: A)

Recommendation 12: The Bureau of Administration should require the contracting specialist
assigned to Embassy Bogota to travel to Regional Procurement Support Office Fort Lauderdale
for orientation. (Action: A)

                                      13
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

Recommendation 13: The Bureau of Administration should require that Regional
Procurement Support Office Fort Lauderdale complete all recommendations from the previous
Office of the Procurement Executive and Office of Acquisitions Management review. (Action:
A)




                                     14
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Administration should require Regional
Procurement Support Office Frankfurt to schedule sufficient time for locally employed staff to
mentor embassy staff while on contract-related visits.

Informal Recommendation 2: The Bureau of Administration should require that Regional
Procurement Support Office Frankfurt involve locally employed staff in organizational
decisions.

Informal Recommendation 3: The Bureau of Administration should require that Regional
Procurement Support Office Frankfurt develop an orientation program for new employees.

Informal Recommendation 4: The Bureau of Administration should require that Regional
Procurement Support Office Frankfurt designate a training coordinator to track required training
for all locally employed procurement agents.

Informal Recommendation 5: The Bureau of Administration should require that Regional
Procurement Support Office Frankfurt hold regular staff meetings.

Informal Recommendation 6: The Bureau of Administration should require that Regional
Procurement Support Office Frankfurt develop an annual leave plan.

Informal Recommendation 7: The Bureau of Administration should require Regional
Procurement Support Office Frankfurt to brief all staff on the results of the Office of the
Procurement Executive and Office of Inspector General, Office of Audits, reviews and
compliance with their recommendations.

Informal Recommendation 8: The Bureau of Administration should require Regional
Procurement Support Office Fort Lauderdale to develop a list of technically experienced
individuals at missions throughout the region who can be called upon to assist in evaluating
contract specifications.

Informal Recommendation 9: The Bureau of Administration should require Regional
Procurement Support Office Fort Lauderdale to hold regular staff meetings.

Informal Recommendation 10: The Bureau of Administration should require Regional
Procurement Support Office Fort Lauderdale to establish an orientation program for all new
employees.




                                       15
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                   Name Contract Warrant Arrival Date
RPSO Frankfurt:
Director                             Michele Hartigan           Unlimited     12/2008
Deputy Director                               Vacant            Unlimited
Executive Officer                     Perry Gresham             $250,000      08/2012
LE Staff Branch Chiefs:
 Branch A                            Graham Andrews                           05/1988
 Branch S                             Gillian Atkinson                        03/1993
 Branch M                              Rena Makridis                          12/1979
Contract Specialist                       [Redacted] (b) (6)     $100,000     11/2006

RPSO Florida:
Director                              Benita Williams           Unlimited     06/2013
Contract Specialist               [Redacted] (b) (6)            Unlimited     07/1997
Contract Specialist                                            $10 million    10/2005
Contract Specialist                                            $10 million    04/2009
Contract Specialist                                             $4 million    01/2011
Contract Specialist                                              $150,000     01/1212
Logistics Management Specialist                                   $25,000     07/2005




                                      16
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
A                 Bureau of Administration

A/LM/AQM          Office of Acquisitions Management

COR               Contracting officer’s representative

INL               Bureau of International Narcotics and Law Enforcement

LE                Locally employed (staff)

RPSO              Regional Procurement Support Office

SDBU              Office of Small and Disadvantaged Business Utilization




                            17
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
